   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
        FY 2006 AND FY 2005
 Saint Lawrence Seaway Development Corporation

          Report Number: QC-2007-005
         Date Issued: November 9, 2006
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Quality Control Review of                   Date:    November 09, 2006
           Audited Financial Statements for
           FY 2006 and FY 2005, Saint Lawrence Seaway
           Development Corporation
           QC-2007-005

  From:    Rebecca C. Leng                                        Reply to
           Assistant Inspector General for Financial              Attn of:   JA-20
            and Information Technology Audits

    To:    Saint Lawrence Seaway Development
            Corporation Administrator

           The audit of the Saint Lawrence Seaway Development Corporation’s Financial
           Statements as of and for the fiscal years ended September 30, 2006, and
           September 30, 2005, was completed by Dembo, Jones, Healy, Pennington &
           Marshall, P.C., of Rockville, Maryland (see Attachment). We performed a quality
           control review of the audit work to ensure that it complied with applicable
           standards. These standards include the Chief Financial Officers Act; Government
           Corporation Control Act; Generally Accepted Government Auditing Standards;
           and Office of Management and Budget Bulletin 06-03, “Audit Requirements for
           Federal Financial Statements.”

           Dembo, Jones, Healy, Pennington & Marshall, P.C., concluded that the financial
           statements presented fairly, in all material respects, the financial position of the
           Saint Lawrence Seaway Development Corporation as of September 30, 2006, and
           September 30, 2005, and the results of its operations and cash flows for the years
           then ended, in conformity with U.S. generally accepted accounting principles.
           The report did not include any reportable internal control weaknesses or material
           non-compliances with accounting principles, laws, or regulations.

           In our opinion, the audit work complied with applicable standards. Therefore, we
           are not making any recommendations, and a response to this report is not required.

           We appreciate the cooperation and assistance of representatives of the Saint
           Lawrence Seaway Development Corporation and Dembo, Jones, Healy,
Pennington & Marshall, P.C. If we can answer any questions or be of any further
assistance, please call me at (202) 366-1496 or Earl Hedges, Program Director, at
(410) 962-1729.

Attachment
                                       #
